GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

May 7, 2020
Hon. Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-1141, Atlantic Trading USA, LLC v. BP P.L.C.
Dear Mr. Harris,
Pursuant to the Court’s Order of March 19, 2020 and Supreme Court Rule 30.4, I am
writing on behalf of petitioners to request that the Clerk delay distribution of the Petition for
a Writ of Certiorari in this case. The petition was filed on March 13, 2020 and the brief in
opposition was filed on April 27, 2020. The petition is scheduled to be distributed on May
12, 2020. Petitioners request a two-week extension of the distribution date from May 12,
2020 to and including May 26, 2020. Petitioners make this request because they need
additional time to file a reply due to the ongoing COVID-19 pandemic. Counsel of record for
petitioners recently experienced a death in his family related to COVID-19.
Counsel for respondents have authorized me to represent that respondents do not
object to this request.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Eric F. Citron

cc: Counsel for Respondents

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

